<html>
<title> - REDUNDANCY AND DUPLICATION IN CHILD WELFARE PROGRAMS: A CASE STUDY ON THE NEED FOR EXECUTIVE REORGANIZATION AUTHORITY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
 REDUNDANCY AND DUPLICATION IN CHILD WELFARE PROGRAMS: A CASE STUDY ON 
            THE NEED FOR EXECUTIVE REORGANIZATION AUTHORITY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 20, 2004

                               __________

                           Serial No. 108-200

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform








                 U.S. GOVERNMENT PRINTING OFFICE

95-903                 WASHINGTON : 2004
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866)512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001




                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 20, 2004.....................................     1
Statement of:
    DeLay, Hon. Tom, Majority Leader, U.S. House of 
      Representatives............................................    52
    Horn, Wade F., Assistant Secretary for Children and Families, 
      U.S. Department of Health and Human Services; J. Robert 
      Flores, Administrator, Office of Juvenile Justice and 
      Delinquency Prevention, U.S. Department of Justice; and 
      Colien Hefferan, Administrator, Cooperative State Research 
      Education and Extension Service, U.S. Department of 
      Agriculture................................................    16
Letters, statements, etc., submitted for the record by:
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     4
    DeLay, Hon. Tom, Majority Leader, U.S. House of 
      Representatives, prepared statement of.....................    54
    Flores, J. Robert, Administrator, Office of Juvenile Justice 
      and Delinquency Prevention, U.S. Department of Justice, 
      prepared statement of......................................    35
    Hefferan, Colien, Administrator, Cooperative State Research 
      Education and Extension Service, U.S. Department of 
      Agriculture, prepared statement of.........................    48
    Horn, Wade F., Assistant Secretary for Children and Families, 
      U.S. Department of Health and Human Services, prepared 
      statement of...............................................    18
    Murphy, Hon. Tim, a Representative in Congress from the State 
      of Pennsylvania, prepared statement of.....................    12
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................     8


 REDUNDANCY AND DUPLICATION IN CHILD WELFARE PROGRAMS: A CASE STUDY ON 
            THE NEED FOR EXECUTIVE REORGANIZATION AUTHORITY

                              ----------                              


                         THURSDAY, MAY 20, 2004

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
2154, Rayburn House Office Building, Hon. Tom Davis (chairman 
of the committee) presiding.
    Present: Representatives Tom Davis of Virginia, Murphy, 
Blackburn, Waxman, Cummings, Tierney, Watson, Van Hollen, 
Ruppersberger, and Norton.
    Also present: Mr. DeLay.
    Staff present: Keith Ausbrook, chief counsel; Ellen Brown, 
legislative director and senior policy counsel; Robert Borden, 
counsel and parliamentarian; Drew Crockett, deputy director of 
communications; Mason Alinger and Susie Schulte, professional 
staff members; Teresa Austin, chief clerk; Brien Beattie, 
deputy clerk; Allyson Blandford, office manager; Robert White, 
press secretary; Christopher Lu, minority deputy chief counsel; 
Earley Green, minority chief clerk; and Jean Gosa, minority 
assistant clerk.
    Chairman Tom Davis. The meeting will come to order. Thank 
you all for coming.
    The purpose of today's hearing is to gain an understanding 
of the wide range of Federal agencies and programs responsible 
for protecting and caring for our Nation's most vulnerable 
citizens, abused and neglected children. The committee's 
primary interest is to determine the extent to which overlap 
and duplication among Federal child abuse and neglect programs 
creates inefficiencies that hinder overall effectiveness.
    In turn, we're also interested in exploring the need to 
reinstate Presidential executive reorganization authority as a 
tool to cut through the redundancy of the Federal bureaucracy 
with the area of child abuse and neglect programs just one 
obvious example of the organizational maze that we face.
    There's too much at stake for us to accept a scatter shot 
government structure. There are 542,000 children in this 
country in foster care. The number of children with a parent in 
a Federal or State correctional facility increased from 900,000 
to 2 million between 1991 and 1999. We have an obligation to 
help provide the care and the stability that these children 
need.
    The bottom line is that the legislative branch is not an 
effective manager of the Federal Government. Rather than 
formulating policy, authorizing spending and overseeing Federal 
initiatives, the legislative branch all too often inserts 
itself into program administration by establishing niche 
programs to address niche needs. In the realm of Federal child 
abuse and neglect, Congress has established more than 50 
individual programs spread throughout 4 cabinet level 
departments. All are focused in some way on the important issue 
of protecting abused children. But how much effectiveness is 
lost due to lack of coordination across agencies? And we have 
to ask, can we do better?
    As the President stated in his management agenda, 
Government likes to begin things, to declare grand new programs 
and causes. But good beginnings are not the measure of success. 
What matters in the end is completion, performance, results, 
not just making promises, but making good on promises.
    That's the problem we face here today. For the past three 
decades, Congress has created 51 Federal programs spread across 
the Department of Health and Human Services, Justice, 
Agriculture, and Education to deal with problems of child abuse 
and neglect. These 51 Federal child abuse and neglect 
prevention programs fall under a bigger umbrella of 339 Federal 
programs that the recent White House Task Force for 
Disadvantaged Youth identified as playing a role in the general 
field of child welfare.
    Considering that the Federal Government's primary role in 
child welfare is to administer grants to States, local and non-
profit agencies, these are agencies that actually provide 
services to children. The sheer number of Federal programs 
involved should be troubling to all, including the agencies 
administering them.
    I'd be remiss if I failed to mention that Congress is 
guilty here too, because we tie the hands of many of these 
agencies by earmarking hundreds of millions of dollars for 
specific programs through the appropriation process. Earmarks 
are often an important source of Federal funding for valuable 
programs, but they shouldn't take the place of the expertise 
that's available to the agencies themselves.
    I think two of the findings from the October 2003 report 
from the White House Task Force on Disadvantaged Youth are 
especially noteworthy. First, the report concluded that the 
current Federal response to disadvantaged youth is a perfect 
example of mission fragmentation. We're doing too many similar 
things in too many different places.
    The second conclusion of note is that Federal agencies must 
be responsible for effectively stewarding child welfare 
initiatives as authorized by Congress. The task force report 
found that mission creep within agencies administering child 
welfare programs has led to a haphazard response and a lack of 
rationality that these serious and complex problems demand. 
Just because Congress has authorized these programs in various 
agencies doesn't let Federal managers off the hook. The people 
administering these programs must effectively shepherd the 
programs under their responsibility and make sure their 
programs are focused on accomplishing outcomes and results, not 
building turf.
    The Federal agency witnesses here today will explain how 
their individual programs and offices fit into the elaborate 
patchwork of Federal child abuse and neglect prevention 
efforts, as well as efforts being made to improve coordination. 
I don't doubt the sincerity or the intentions of a single 
Federal employee who has dedicated his or her life to promoting 
the welfare of our children. And that holds true for the 
witnesses before us today.
    But the question still remains: is the current structure 
the most effective framework for protecting our most vulnerable 
citizens? I would imagine the witnesses before us today have 
some ideas, and I look forward to hearing from them.
    That brings me to the second purpose for the hearing. There 
have already been a great number of reports, studies, 
commissions and task forces looking at ways to improve the 
organization and effectiveness of Federal programs, both in the 
area of child welfare and across the entire Government. In my 
opinion, we know the answer by now. It's time to return to the 
President for the authority to initiate reorganizations within 
the executive branch and to have them subject to an up or down 
vote in Congress. Waiting for Congress to come to an agreement 
and initiating such a reorganization could take years and would 
inevitably get bogged down in jurisdictional battles. These are 
years that children receiving Federal aid don't have to lose.
    I'm very pleased to have the Majority Leader, Tom DeLay, a 
long-time champion of disadvantaged children, and an advocate 
of Government reorganization here today with us. In addition, 
we'll hear testimony from a number of distinguished Government 
witnesses. We have Wade Horn, the Assistant Secretary for 
Children and Families at the Department of Health and Human 
Services, who will testify on behalf of all the child abuse and 
neglect prevention programs located within the Children and 
Families Administration, the Office of the Secretary, the 
Centers for Disease Control and Prevention, the National 
Institutes of Health, Substance Abuse and Mental Health 
Services and Mental Health Administration.
    Robert Flores, the Administrator of the Office of Juvenile 
Justice and Delinquency Prevention, at the Department of 
Justice, will testify on the efforts to prevent child abuse and 
neglect in the Office of Juvenile Justice and Delinquency 
Prevention, the Bureau of Justice Assistance, the Bureau of 
Justice Statistics, the Office of Victims of Crimes, the 
National Institutes for Justice and the Violence Against Women 
Office.
    Colien Hefferan, the Administrator for the Cooperative 
State Research, Education and Extension Service at the 
Department of Agriculture will discuss the Children, Youth and 
Families at Risk program at the Department of Agriculture.
    The Department of Education will unfortunately not be 
joining us this morning to discuss the Department's efforts to 
protect at-risk youth through the Safe and Drug-Free Schools 
initiative and the grants for infants and families. But the 
Department committed to looking into the matter and reporting 
back to the committee on the results of their findings.
    I welcome all the witnesses to today's hearing. I look 
forward to hearing their testimony. Thank you for being with 
us.
    [The prepared statement of Chairman Tom Davis follows:]
    [GRAPHIC] [TIFF OMITTED] 95903.001
    
    [GRAPHIC] [TIFF OMITTED] 95903.002
    
    [GRAPHIC] [TIFF OMITTED] 95903.003
    
    Chairman Tom Davis. I would now recognize the distinguished 
ranking member, Mr. Waxman.
    Mr. Waxman. Thank you very much, Mr. Chairman.
    I too want to welcome the Honorable Tom DeLay to our 
hearing today. While I've complained in the past about the 
Republican leaders being somewhat secretive and opaque, I just 
want to say that he's carried transparency to a new level 
today. [Laughter.]
    Chairman Tom Davis. That's good, that's good.
    Mr. Waxman. But I want to thank you as well, Mr. Chairman, 
for holding this hearing. Numerous studies have detailed areas 
of jurisdictional overlap within the Federal Government. In 
March, the Civil Service Subcommittee examined the overlapping 
structure of food safety regulations in this country, an issue 
of great interest to me. Today we examine another important 
area in which redundances may exist, child abuse and neglect 
prevention programs. When overlapping programs cause 
inefficiencies or gaps in service, reforms are necessary. 
Redundant programs should be redesigned, integrated into other 
programs or simply eliminated. Agencies involved in child 
welfare programs also need to better coordinate their services.
    But I do not believe the answer is to create a block grant 
for those programs, as the administration has proposed. Block 
grants provide little accountability and do not necessarily 
lead to great efficiency. One question we will have to address 
is how executive reorganization should occur. There are those 
who favor transferring most of the responsibility for 
reorganization from Congress to the White House. While this 
might appear to be the most efficient approach, I'm not sure it 
is the best approach. Even though I did not agree with the bill 
that created the Homeland Security Department, I believe it was 
important for Congress to have played an active role in 
crafting that legislation.
    As we focus on making Government more effective and 
efficient, we cannot overlook the importance of our Federal 
Civil Service. Federal employees are the heart and soul of our 
Government. Over the past few years, Federal employees have 
seen their rights taken away, their jobs outsourced and their 
pay raises under attack.
    Not surprisingly, many Federal employees view 
reorganization as just another assault on the Civil Service. I 
know that this is not the chairman's intent, but this 
perception is an unfortunate legacy of recent administration 
actions. We must find ways to address the genuine concerns of 
Federal employees as we consider any future reorganization 
proposals.
    I look forward to the testimony of today's witnesses. And 
again, Mr. Chairman, I appreciate your holding this hearing.
    [The prepared statement of Hon. Henry A. Waxman follows:]
    [GRAPHIC] [TIFF OMITTED] 95903.004
    
    [GRAPHIC] [TIFF OMITTED] 95903.005
    
    Chairman Tom Davis. Thank you very much.
    Mr. Murphy.
    Mr. Murphy. Thank you, Mr. Chairman.
    Sarah is a child who was just 3 years old when I first met 
her. But in those 3 years of her life, when I was working as a 
psychologist, she had already endured more suffering than 
anyone should have to bear in a lifetime. She had already 
suffered a broken femur, had twisting fractures of bones in 
both her arms, a large hematoma on her head, a fractured skull 
and developmental delays. She was scared of people, terrified 
of a raised voice. When held, she watched your eyes with a 
vigilance like that of a soldier who has been in battle.
    These painful injuries of obvious child abuse were not the 
worst of her problems. Her biggest problem was that she had 
been returned to her violent home three times. While her 
parents negotiated through a legal system, Sarah was moved in 
and out of foster care and through an assembly line of case 
workers, doctors, therapists and lawyers. Here was a child who 
was abused by her parents and by the system meant to protect 
her, a system that was convoluted, overwhelmed and difficult to 
negotiate at best, I had trouble figuring out what forms to 
fill out next, what office to turn to, what person to turn to. 
It was difficult for me and downright impossible for the many 
children and parents I worked with.
    Sadly and tragically, Sarah is not alone. She is one of the 
millions of children who have been abused over the last 10 
years while State and Federal Governments have spent billions 
and billions trying to help. Somewhere in America, four 
children will die today from abuse and neglect. That's about 
1,300 per year. And half the neglect cases probably go 
unreported. Somewhere in America, a child is abused every 30 
seconds. That is a staggering almost 900,000 per year, and the 
numbers are not significantly changing.
    There are 500,000 children languishing for years in our 
foster care system because our juvenile and family courts do 
not adequately track them, according to a report released this 
week from the Pugh Commission on Children in Foster Care. It's 
painful for us to even think of the deaths, injuries, the 
exploitation. I shudder when I recall the sights of abused 
children in hospitals that I saw, the scars of those recovering 
and the death notices of those who did not.
    If we had declared war against child abuse in this Nation, 
we would have to come to the conclusion that we are not 
winning. The casualties are mounting and the children are still 
suffering. This is the great American shame.
    Compassion has motivated us to take some action, but we 
have a morass of Federal programs, we have 51 for multiple 
funding streams. And it is virtually impossible to figure out 
just how much is spent and how, and where it goes when one 
looks at the programs, at least the ones we can find. How much 
money is wasted here? How much actually gets to helping the 
children in the front line? It is not just how many dollars we 
spend, but how we spend the dollars that can make a difference.
    According to the October 2003 White House Task Force on 
Disadvantaged Youth, it said the complexity of the problems 
faced by disadvantaged youth is matched only by the complexity 
of the traditional Federal response to those problems. Both are 
confusing, complicated and costly. If we do not get a clear 
sense of what we are doing as a Government and how we can do it 
better, we cannot offer hope to children like Sarah, nor can we 
offer hope to families who with treatment can do better. There 
are programs and people that can and do make a difference.
    But I fear, I truly fear that if we dare to raise the 
questions about where our dollars go and suggest there is 
redundancy and inefficiency in Government programs, some will 
try to politicize the issue and stop it. We will end up beating 
our chests and be full of sound and fury while signifying 
nothing. It would be wrong. It would delay what we must do and 
worst of all, it would lead to the hurt of more children.
    We must review these issues thoroughly, honestly, 
respectfully and sincerely. To do anything less would 
perpetuate the great shame we must admit today. We are not here 
to strengthen bureaucracies, but to strengthen the family. We 
are not here to save the status quo, but to save lives. We 
cannot focus on the election year politics of party 
preservation but must challenge ourselves to find ways to get 
funding directly to where it will do the most good, to 
eliminate regulations that add unnecessary hurdles to families, 
and to strengthen those programs that ultimately strengthen our 
families.
    Somewhere in this Nation, 5 to 10 more children have been 
abused since I began to speak. Somewhere in this Nation there 
are many more children like Sarah, somewhere in this Nation 
there are children in foster care wishing to be returned to a 
stable home, praying for adoption and crying for someone to 
listen to them. Somewhere on this dais, in this committee and 
in our chamber are those who can make a difference, if we have 
the courage, the compassion and the commitment to ask the 
difficult questions and to search for the elusive answers. To 
do anything less would continue the shame. To do our job would 
give hope and life to the children who depend on us.
    I hope that we choose the path of hope.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Tim Murphy follows:]
    [GRAPHIC] [TIFF OMITTED] 95903.006
    
    [GRAPHIC] [TIFF OMITTED] 95903.007
    
    Chairman Tom Davis. Thank you. Are there any other Members 
who wish to make opening statements? Ms. Norton, then Ms. 
Watson.
    Ms. Norton. Mr. Chairman, I want to thank you for focusing 
this hearing particularly on abuse and neglect of children, 
because there are services to be rendered, there is no time to 
be lost.
    I want to note that the real quagmire, of course, is not 
about funding streams, and it is at the local and State level. 
I know that first-hand because of the extraordinary problems 
we've had in the District, which I've since learned are simply 
part of a national pattern at the State and local level. 
Nevertheless, it does seem to me that we have a particular 
obligation at the Federal level to make sure the Government is 
efficient.
    I am one of these members who believes that Government 
efficiency is particularly important, because then you get 
people turning on Government rather than on the inefficiency. 
At this point, if the inefficiency is reorganization, I would 
want to first of all commend the Federal Government. What some 
local governments have begun to understand, in the District for 
example, we are creating a one-stop center, so that a parent or 
a guardian or personnel do not have to traipse all around the 
city from one place to another trying to find out what to do 
for this child.
    Why aren't we doing at least that at the Federal level? I 
raise that because we're talking about services that are for 
the most part found in one, perhaps two agencies, if you take 
the Department of Education. But most of them are in the Health 
and Human Services agency. Well, having run an agency of the 
Federal Government, having reorganized an agency from top to 
bottom of the Federal Government, my first question would be, 
why doesn't HHS, or why doesn't the President of the United 
States use his inherent authority to organize agencies within 
his own department so that some of these problems are at least 
ameliorated. Funding streams, the way in which legislation 
itself is worded is for us.
    But the last thing we want to do when we're dealing with an 
issue like this is to get into another controversy of the kind 
we have had in our meetings and our hearings of the Department 
of Defense and the Department of Homeland Security, where in 
the end it was all about bureaucracy and you lost sight 
entirely of the underlying reason that must be there for any 
reorganization to occur.
    I need to see evidence that the administration is tending 
to its own business. Then if you can find that you need a 
wholesale reorganization to deal with abused and neglected 
children, I think you will find Members of Congress willing to 
work closely on both sides of the aisle with the administration 
to accomplish that purpose.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much. Ms. Watson.
    Ms. Watson. Thank you very much, Mr. Chairman, and good 
morning to all.
    I'm glad we are here to discuss the reorganization of our 
child welfare system. It's a very crucial issue that needs much 
attention.
    Los Angeles County, the county with the largest foster care 
population in the Nation, has an abuse rate that is two to four 
times higher than the rate of abuse in other jurisdictions. The 
county has identified their three top goals as improved 
performance in the length of a child's placement to finalize 
adoption, and improve safety in the home, and finally, keeping 
children placed with their biological parents by offering extra 
support to the parent where necessary.
    Los Angeles County's identifications of its priorities is a 
step in the right direction, just as removing redundancy and 
duplication in our child welfare system ought to be another 
right step. We must be very careful, however, that we cut the 
fat, not the muscle. And I want to make certain that this 
initiative is not just an excuse for cutting vital programs 
under the name of reorganization. Certainly the well-being of 
our Nation's youth is a top priority, and I would hope that 
each person involved in this all-important task work with the 
child's best interests in mind, expeditiously and with great 
sensitivity and care.
    I worked in this system, I worked as a child psychologist, 
I worked as a cookie cop. And believe me, we have lots and lots 
of issues that we must deal with. But what we need is checks 
and balances and accountability. Somebody has to be in charge, 
someone has to be monitoring, someone has to keep track of our 
young people. So I look forward to seeing how our system and 
hearing how our system will be improved by coordinating all of 
our forces.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much. Are there any 
other Members who wish to make opening statements? Mr. 
Ruppersberger. The Majority Leader is on his way over, so if 
you want to take that time.
    Mr. Ruppersberger. Not to be redundant, but we have to 
remember that we are really talking about protecting some of 
the most vulnerable members of our society. Clearly the focus 
should be on what we can do to make sure that no child falls 
through the bureaucratic cracks and that Government resources 
are not being wasted by duplication and redundancy. In my 
former position as a county executive, I was involved in our 
county with a child that was abused and later died.
    An evaluation of the process showed that we had a lot of 
well-meaning people working in the system, but the bureaucracy 
really got in the way for us to deal with the actual children 
themselves. That's why it's important that we continue to 
review what we need to do to protect those vulnerable members 
of society.
    In my opinion, executive reorganization authority should be 
granted on a case by case basis when it's determined by 
Congress that it is necessary. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    I don't see Mr. DeLay here yet, so why don't we move our 
first panel up. When he comes in, I'd like to move him up to 
the dais so he can give his statement from here and then ask 
questions to expedite things. But why don't we move our first 
panel here. We have a distinguished first panel, Dr. Wade Horn, 
the Assistant Secretary for Children and Families at HHS; Mr. 
J. Robert Flores, the Administrator of the Office of Juvenile 
Justice and Delinquency Prevention, U.S. Department of Justice; 
and Dr. Colien Hefferan, the Administrator of Cooperative State 
Research, Education and Extension Service, U.S. Department of 
Agriculture.
    Thank you very much for being with us today. It's our 
policy that we swear you in before you testify, so if you'll 
just rise with me and raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you.
    Dr. Horn, why don't we start with you. I may interrupt in 
the middle, but I may let you conclude. We'll see what Mr. 
DeLay wants to do and what his time schedule is. I know he 
wants to be here for questions if we can do it. But we had the 
President here this morning, there are some things happening on 
the floor. So we'll try to accommodate the Majority Leader.
    Dr. Horn, thanks for being with us. By the way, we have a 
light in front of you that will be green when you start. It 
turns orange after 4 minutes, red after 5. Your entire 
statement is part of the record and questions will be based on 
you entire statement. Thank you very much.

STATEMENT OF WADE F. HORN, ASSISTANT SECRETARY FOR CHILDREN AND 
  FAMILIES, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES; J. 
 ROBERT FLORES, ADMINISTRATOR, OFFICE OF JUVENILE JUSTICE AND 
DELINQUENCY PREVENTION, U.S. DEPARTMENT OF JUSTICE; AND COLIEN 
 HEFFERAN, ADMINISTRATOR, COOPERATIVE STATE RESEARCH EDUCATION 
     AND EXTENSION SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Horn. Mr. Chairman and members of the committee, thank 
you for the opportunity to testify before you today to discuss 
the Federal Government's coordination efforts to prevent and 
respond to child abuse and neglect.
    The Bush administration is committed to improving our 
national response to the terrible problem of child abuse and 
neglect. While we are justifiably proud of the efforts we are 
making to assist States, tribes and communities in 
strengthening child abuse prevention and child welfare 
programs, far more needs to be done. Unfortunately, the 
plethora of disparate programs and funding streams that are 
mired with idiosyncratic and complex rules and requirements 
make it extremely difficult for States to develop and manage 
effective child welfare systems.
    That's one reason why the Bush administration strongly 
supports the reauthorization of the executive branch 
Reorganization Act, so that we can begin to study possible 
reorganizations within the executive branch that allow for 
greater coordination and collaboration of our efforts, to 
improve our ability to prevent and intervene in cases of child 
abuse and neglect.
    As Assistant Secretary for Children and Families, I oversee 
many Federal programs targeted to child abuse and neglect and 
the child welfare system. We have learned that if we are to be 
successful in meeting the complex needs of the children and 
families that come in contact with the child welfare system, we 
must provide a coordinated response to the problems associated 
with child abuse and neglect at all levels of government. With 
this goal in mind, ACF created the Federal Interagency Work 
Group on Child Abuse and Neglect to provide a forum for 
collaboration among Federal agencies with an interest in child 
maltreatment. The group shares information, plans and 
implements joint activities, makes policy and programmatic 
recommendations, and works toward establishing complementary 
agendas in the areas of training, research, legislation, 
information dissemination and delivery of services as they 
relate to the prevention, intervention and treatment of child 
abuse and neglect.
    Led by the Office of Child Abuse and Neglect, the Federal 
Interagency Work Group is composed of representatives from a 
number of components within the U.S. Department of Health and 
Human Services, as well as officials from the Departments of 
Education, Justice, Defense, Housing and Urban Development, 
Agriculture and others. Recognizing the importance of 
coordination, I'd like to take this opportunity to highlight a 
new effort that HHS and other Federal partners are undertaking 
through the Office of the Surgeon General.
    On April 1, 2004, I was pleased to join Congressman Tom 
DeLay and Surgeon General Richard Carmona at a press conference 
commemorating National Child Abuse Prevention month, where a 
new initiative was announced to integrate a public health 
perspective into the prevention of child maltreatment. Since 
that time, officials from several agencies within HHS, as well 
as the Departments of Education and Justice, have been meeting 
regularly to further this effort.
    I'm pleased to report that as a result of these 
discussions, on June 16th, the Surgeon General will host the 
first Federal workshop on prevention of child maltreatment. As 
part of this activity, I will join Surgeon General Carmona and 
other administration officials to engage in a focused 
examination of how to improve Federal program coordination, 
effectiveness and efficiency in this area. The goal will be to 
build on existing assets and strengthen collaborations between 
community and faith-based programs and Government efforts that 
identify, assess, treat and provide long treatment and 
prevention services for children and families.
    In addition to these efforts to increase coordination 
across Federal programs, the President's budget for fiscal year 
2005 includes important provisions to provide both increased 
funding targeted to child abuse and neglect, and greater 
flexibility in the use of Federal foster care dollars. 
Specifically, the President proposes to fully fund the 
Promoting Safe and Stable Families program, and to nearly 
double the funding level for programs authorized under the 
Child Abuse, Prevention and Treatment Act.
    Additionally, the administration proposed a legislative 
change that would offer States the option to receive a capped 
flexible source of funds to build innovative programs for 
children and families aimed at improving the safety, permanency 
and well-being of children who come in contact with the child 
welfare system. Finding ways to successfully combat child abuse 
is a challenge that no one entity, organization or unit of 
government can achieve on its own. Rather, it will require that 
we all work together to address this issue and in doing so, 
bring new hope to the thousands of children who suffer from 
abuse or neglect.
    Again, thank you for the opportunity to testify before you 
today, and I'd be pleased to answer any questions.
    [The prepared statement of Mr. Horn follows:]
    [GRAPHIC] [TIFF OMITTED] 95903.008
    
    [GRAPHIC] [TIFF OMITTED] 95903.009
    
    [GRAPHIC] [TIFF OMITTED] 95903.010
    
    [GRAPHIC] [TIFF OMITTED] 95903.011
    
    [GRAPHIC] [TIFF OMITTED] 95903.012
    
    [GRAPHIC] [TIFF OMITTED] 95903.013
    
    [GRAPHIC] [TIFF OMITTED] 95903.014
    
    [GRAPHIC] [TIFF OMITTED] 95903.015
    
    [GRAPHIC] [TIFF OMITTED] 95903.016
    
    [GRAPHIC] [TIFF OMITTED] 95903.017
    
    [GRAPHIC] [TIFF OMITTED] 95903.018
    
    [GRAPHIC] [TIFF OMITTED] 95903.019
    
    [GRAPHIC] [TIFF OMITTED] 95903.020
    
    [GRAPHIC] [TIFF OMITTED] 95903.021
    
    [GRAPHIC] [TIFF OMITTED] 95903.022
    
    Chairman Tom Davis. Thank you very much.
    Mr. Flores.
    Mr. Flores. Mr. Chairman, members of the committee, I am J. 
Robert Flores, the Administrator of the Office of Juvenile 
Justice and Delinquency Prevention, within the Office of 
Justice Programs at the Justice Department.
    I'm pleased to be here today to represent the Department, 
the Attorney General and OJP's Assistant Attorney General, 
Deborah Daniels. Consistent with the Attorney General's 
strategic plan, we at OJP endeavor to focus on how best to meet 
beneficiary and community needs while accomplishing the 
necessary coordination among stakeholders at all levels, 
Federal, State and local.
    OJP, including OJJDP, also collaborates widely with other 
Federal agencies across our program fields. We also understand 
the need for integration of child welfare programs and 
consistent services. Although the two systems are often 
disconnected, the juvenile justice and child welfare systems 
are both integral to serving children's needs. Because the 
causes of abuse and neglect have their roots in dysfunctional 
families, child welfare workers and juvenile justice 
practitioners end up seeing many of the same children.
    OJJDP funded the Rochester Youth Development Study 10 years 
ago, and has continued to support that study, which has 
determined that children who are abused and neglected self-
reported that they were significantly more likely to engage in 
serious and violent delinquency than children who were not 
maltreated.
    Abused kids also end up as teenagers who are more likely to 
use drugs, do poorly in school, become pregnant and suffer 
emotional and mental health problems. For that reason, it's 
imperative that both the juvenile justice system and those 
agencies that provide human services succeed. For example, this 
shared responsibility with each agency contributing its 
respective expertise is the philosophy behind the 
administration's efforts to improve the reintegration into the 
communities of those juveniles and adults who leave 
confinement.
    The Justice Department does not build housing. We're not 
providing jobs and we don't provide health care. But we know 
that those services are key to the successful reintegration 
into society of those individuals. In turn, the successful 
reentry for a former offender is necessary to preserve the 
safety of our society. Because we can't provide these services 
and resources directly, we must turn to other Federal and State 
partners, and the rules and regulations must allow for such 
cooperation.
    In my written statement, I provided other examples of 
existing DOJ programs that demonstrate a high degree of 
coordination between and among Federal agencies as well as with 
State and local governments and organizations.
    In addition, as this committee conducts its examination of 
Federal child welfare service delivery, I commend to you the 
ability of the Coordinating Council on Juvenile Justice and 
Delinquency Prevention to effect changes in many child-serving 
programs across multiple Federal agencies. The Coordinating 
Council is statutorily mandated, chaired by the Attorney 
General and includes the Secretaries of Labor, Education, 
Housing and Urban Development and Health and Human Services as 
well as the Director of the Office of National Drug Control 
Policy and the CEO of the Corporation on National Community 
Service.
    In addition, the Council includes nine practitioner 
members. Especially over the last year, the Council has 
developed into a body that provides a real mechanism for 
departmental representatives to invite other Federal agencies 
to coordinate with them on child welfare and other issues. The 
Department of Justice has in turn asked for the cooperation of 
other agencies in satisfying departmental priorities and 
received it.
    I want to assure you that the Department of Justice is 
fully committed to ensuring that all children, including those 
at risk for involvement in our juvenile justice system, are 
afforded the chance to be nurtured in a healthy family 
environment where they can grow into productive, self-
sustaining adults. We look forward to working with our 
colleagues across Government to achieve that goal.
    Thank you, and I'd be pleased to answer any questions you 
might have.
    [The prepared statement of Mr. Flores follows:]
    [GRAPHIC] [TIFF OMITTED] 95903.023
    
    [GRAPHIC] [TIFF OMITTED] 95903.024
    
    [GRAPHIC] [TIFF OMITTED] 95903.025
    
    [GRAPHIC] [TIFF OMITTED] 95903.026
    
    [GRAPHIC] [TIFF OMITTED] 95903.027
    
    [GRAPHIC] [TIFF OMITTED] 95903.028
    
    [GRAPHIC] [TIFF OMITTED] 95903.029
    
    [GRAPHIC] [TIFF OMITTED] 95903.030
    
    [GRAPHIC] [TIFF OMITTED] 95903.031
    
    [GRAPHIC] [TIFF OMITTED] 95903.032
    
    [GRAPHIC] [TIFF OMITTED] 95903.033
    
    Chairman Tom Davis. Thank you very much.
    Dr. Hefferan, thank you for being with us.
    Ms. Hefferan. Good Mr. Chairman and members. I'm Colien 
Hefferan, the Administrator of the Cooperative State Research 
Education and Extension Service at the U.S. Department of 
Agriculture.
    The mission of our agency is to advance knowledge for 
agriculture, the environment, communities and human health and 
well-being through program leadership and coordination and 
Federal assistance, primarily to universities. I appreciate the 
opportunity to come before this committee today to present 
several contributions that USDA supports through our 
cooperative extension programs that improve the welfare of our 
Nation's children.
    The programs I'll describe to you are administered by USDA 
in cooperation with land grant universities, particularly State 
extension programs. The cooperative extension model, which 
shares leadership and funding for community based programs 
across Federal, State and local governments, is ideally 
constructed to leverage scarce financial resources and develop 
locally relevant solutions to challenges facing youth. Federal 
funding for these programs is provided both through a formula 
base to the universities as matched by dollar for dollar with 
State and local funds.
    Families, Youth and Communities is one of our key programs 
in the national extension system. Through our program, 
extension professionals provide research based education and 
training in critical needs such as nutrition, financial 
security, child care and youth development. The youth 
development components of extension that I'd like to discuss 
today especially focus on the 4-H Youth Development Program, 
and the program entitled Children, Youth and Families at Risk.
    For over 100 years, USDA has been the national headquarters 
for one of America's flagship youth development organizations, 
the 4-H program. 4-H reaches over 7 million children across the 
United States in every corner of the country, and involves over 
650,000 adult volunteers. While 4-H is ultimately delivered by 
local county extension staff, USDA is responsible for the 
overall program leadership and integrity.
    USDA also coordinates with the U.S. Army and the Department 
of the Air Force to deliver 4-H programs on military 
installations across the country and in fact with the Army 
worldwide, 4-H programs are available on military 
installations. 4-H has always been more than just a community 
youth program or youth club. It's specifically designed to 
promote research-based youth development goals, and because 
it's linked to the research systems of the universities, it's 
an ideal program for introducing youth to positive activities, 
including science and technology. 4-H teaches youth personal 
responsibility, community involvement and citizenship. In fact, 
many Members of Congress are 4-H alumni, including several 
members of this committee.
    While 4-H is our central youth development program, the 
programs that focus on children, youth and families at risk are 
particularly important in addressing the issues this committee 
is concerned about. Since 1991, our families and youth at risk 
program has supported more than 600 programs across States and 
communities addressing critical needs of these families with 
children. The program supports comprehensive, intensive and 
community based education and has citizens involved as 
volunteers and professionals throughout the program. It focuses 
on resiliency and protective factors in youth, families and 
communities. In fiscal year 2004, Congress appropriated about 
$7.5 million to this program and the President's budget calls 
for an appropriation of $8.5 million in fiscal year 2005, which 
will be the level that was funded in fiscal year 2003.
    Probably one of the most important aspects of this program 
is that it develops private partnerships that can be sustained 
over a very long period of time. At least 65 percent of the 
programs funded under the Children, Youth and Families at Risk 
program have sustained funding through non-Federal sources for 
at least 6 years after the completion of their Federal funding. 
There are programs again in many communities, over 200 across 
the Nation. To give you one prime example, through the Cornell 
cooperative extension system, there are programs that work with 
rural youth, youth in rural and isolated areas who would not 
otherwise be possible to participate in this kind of program in 
peer education that helps them develop the skills to resist the 
many challenges that are facing teenagers today.
    There are many examples that I can provide, and I will be 
glad to do so with questions. But I appreciate the opportunity 
to share with you a program that is leveraged substantially and 
works across Government with other agencies to ensure positive 
youth development.
    [The prepared statement of Ms. Hefferan follows:]
    [GRAPHIC] [TIFF OMITTED] 95903.034
    
    [GRAPHIC] [TIFF OMITTED] 95903.035
    
    [GRAPHIC] [TIFF OMITTED] 95903.036
    
    [GRAPHIC] [TIFF OMITTED] 95903.037
    
    Chairman Tom Davis. Thank you very much for being with us. 
Thank all of you for being with us.
    I'm going to yield to the Majority Leader for an opening 
statement and to take the first line of questions. Let me just 
say we're very pleased to have the Majority Leader, Tom DeLay, 
here. He's taken a strong interest in child abuse prevention in 
the District of Columbia and nationally, and later today he's 
going to receive the Leadership in Child Prevention and Abuse 
from the Casey Family Programs Foundation. So congratulations 
on that, Mr. Leader, and thank you for taking an interest and 
taking time from I know a very busy legislative day to be with 
us. I know this is important to you. Thank you.

  STATEMENT OF HON. TOM DELAY, MAJORITY LEADER, U.S. HOUSE OF 
                        REPRESENTATIVES

    Mr. DeLay. Thank you, Mr. Chairman. I really thank you for 
the honor of being allowed to sit here with you and the 
committee. It is an honor, and I appreciate your testimony as a 
panel. It is an honor to be back before this committee to once 
again discuss an issue that I know is close to your heart, Mr. 
Chairman, and is also close to mine.
    The fragmentation of Federal child protective services and 
funding in the U.S. Government today, Mr. Chairman, is an 
embarrassment. For decades, Congress has appropriated more and 
more money into more and more programs, only to find that the 
numbers of neglected, malnourished and abused children remain 
unacceptably high.
    The problem is real, and it's acute. And the response at 
the State and especially the Federal level has been reactive 
and clumsy. Meanwhile, because politicians from both parties 
can report to the American people our apparently generous 
appropriations, a few million here for child abuse prevention, 
a few billion there for foster care assistance, the American 
people have a false impression that the Government is in fact 
taking care of these kids.
    But the evidence shows that the Government is doing no such 
thing. In fact, it shows quite the contrary. And I don't mean 
to cast aspersions here, Mr. Chairman, for I've been in 
Congress myself for 20 years, while trends have not appreciably 
improved, Congresses and Presidential administration of both 
parties merit their share of the blame. But the fact still 
remains, Mr. Chairman, kids are dying and it's our fault.
    In our defense, abused and neglected children are hardly 
ignored in Federal law. The charts over here show you, Mr. 
Chairman, the latest estimates indicate some 33 Federal 
agencies and bureaus and offices handle 51 programs and 46 
different funding streams to address child protection. And all 
of these account for billions of dollars.
    Meanwhile, a White House report on disadvantaged youth 
shows that 339 Federal programs are specifically charged with 
helping children in one way or another, and 13 Federal agencies 
administer more than 120 different programs that provide for 
mentoring alone. And it should be noted for the record that the 
Office of Management and Budget has rated 68 percent of those 
330 programs as either results not demonstrated or ineffective. 
It should be further noted that more than half of them have not 
received a thorough, top to bottom evaluation in the last 5 
years.
    Meanwhile, if this committee, and Congress generally are 
concerned about the duplication, and the lack of coordination 
in these many programs and offices, not to worry. There are two 
separate interagency working groups at the Department of Health 
and Human Services to coordinate Federal child abuse prevention 
activities. And we have recently learned that there are plans 
to create a third.
    However well intentioned the current system may be, Mr. 
Chairman, its duplication of efforts, its redundant programs 
and its lack of coordination have not served abused and 
neglected children. These facts are heartbreaking to anyone who 
cares about children. This isn't merely a matter of 
governmental inefficiency or mission creep. It's a failure of 
imagination and a failure of will.
    The Federal solutions to the problem of abused and 
neglected children that we have relied on all our lives are not 
working. While each of us can send out press releases touting 
this program or this or that new grant, kids are still hurting. 
Again, I don't mean to assign blame to any individual. These 
problems are much bigger than any one person. They have grown, 
in fact, to a size much greater than the 435 people who work in 
this building. And yet it is up to Congress and the President 
to act.
    There are things we can and should do to help, Mr. 
Chairman, but they don't include the creation of new layers of 
programs, funding streams and working groups plopped on top of 
the old ones. We need a fundamental re-imagining of the Federal 
role in protecting kids. We spend billions of dollars that 
could do much more good if they reached the right children at 
the right time.
    All the money in the world won't help if it's soaked up by 
redundant and ineffective bureaucracy. We need a restructured 
system that targets resources where they can help. And that is 
practically impossible in the current bureaucratic environment.
    I therefore strongly urge this committee to do two things. 
First, look with skepticism on any plans emanating from within 
Congress or the executive branch that simply aggravate current 
bureaucratic inefficiencies, and second, Mr. Chairman, act to 
restore to the President Government reauthorization authority, 
so that our child protection services can finally start to 
serve the children instead of serving the bureaucracy.
    I thank you, Mr. Chairman.
    [The prepared statement of Hon. Tom DeLay follows:]
    [GRAPHIC] [TIFF OMITTED] 95903.038
    
    [GRAPHIC] [TIFF OMITTED] 95903.039
    
    [GRAPHIC] [TIFF OMITTED] 95903.040
    
    Mr. DeLay. I don't know if you want me to go to questions.
    Chairman Tom Davis. If you'd like to go to questions, I'll 
recognize you.
    Mr. DeLay. I won't spend much more of the committee's time. 
I appreciate your indulgence, Mr. Chairman, and your courtesy. 
I just would ask the panel a couple of questions.
    First of all, in the news as recently as yesterday and 
today, we have Courtney, who was a young girl evidently from 
Brooklyn, dropped off by her father in Baltimore, and her 
father left, leaving her alone. We've been just crying over 
this beautiful little girl, who obviously her parents don't 
want or can't take care of. And now she's in foster care. An 
abandoned child from New York found in Baltimore, currently in 
foster care. HHS and DOJ, maybe you all can walk me through how 
the billions of dollars in Federal funds are going to help 
Courtney.
    Mr. Horn. One of the problems with the way that the Federal 
Government puts out funds in the child welfare system is that 
the bulk of the dollars occur after the fact, after the fact of 
abuse or neglect. And far fewer resources are dedicated to 
supporting families, so that abuse or neglect does not happen 
in the first place.
    And although I don't know all the circumstances of 
Courtney's case, it sounds to me like this was a family that 
was in trouble, that was in stress. My guess is that there 
weren't a lot of resources to help that family, and that the 
only option that they felt for themselves was to drop this girl 
off and have her placed in foster care.
    One of the things that the President would like to do is to 
provide States with greater flexibility in the use of foster 
care funds, so that we not only intervene after the fact, but 
prevent child abuse and neglect from happening in the first 
place. Because a compassionate society, in our view, is not one 
that simply has a really top-notch, top door foster care system 
take care of the 900,000 children who are abused and neglected 
each year, but that a compassionate society is one that works 
as best we can to reduce the possibility of abuse and neglect 
in the first place.
    Mr. DeLay. Mr. Flores.
    Mr. Flores. The Department works to provide training and 
technical assistance to family and juvenile court judges across 
the country. One of the challenges is that people tend to look 
at the juvenile court system or the family court system as the 
last place to go and then when they get there, many of the 
judges don't feel that they have access to resources that they 
could use to try to prevent, as my colleagues just said.
    We have invested heavily, prior to this year, in trying to 
assure that across the country there is a heightened level of 
preparation for family and juvenile court judges so that when 
they see these cases in the first instance, they don't 
necessarily need to wait until the second or third child in a 
particular family comes before them, as either a ward or a 
possible ward. This continues to be challenge, however, because 
oftentimes we're not able to intervene at the most appropriate 
place.
    One of the programs that the Justice Department does fund, 
and we fund it and we built it with the support of HHS, is the 
nurse home visitation program, which attempts to not wait until 
the child is born, but to intervene at the stage where the girl 
first comes forward and says, I'm pregnant, I'm going to have a 
baby. We know this is an incredibly high stress situation, 
where if we don't intervene, we're likely to see child abuse, 
child neglect, and other horrors intervene. That program is 
able, because it matches a human being, an adult, a trained 
adult, with that child, to see very significant improvements in 
what happens to that baby once the baby is born, and during the 
pregnancy, because it results in better diet, better care, 
better preparation for having a new child at home.
    So it can be done. We know how to do that. But we are 
looking at how we extend those resources and build so that 
every community has access to that. That will be done in 
partnership with HHS, because it requires not only the courts 
perhaps be involved, but it particularly involves the health 
care community. We can't do that alone. And until people get 
used to the fact that the court need not be the last place that 
we turn to for child care, we're going to probably continue to 
see some of those results.
    But we're working to try to build on that. Because unless 
we intervene at the earliest stage, and I think that in many 
cases it calls for intervention prior to birth, we're not going 
to see the results that we all want.
    Mr. DeLay. There just seems, in my testimony I pointed out 
120 different mentoring programs, lots of task forces, lots of 
interagency working groups. Do you as a panel, do you think the 
Federal Government shows a lack of focus in those results that 
you're talking about?
    Mr. Flores. I think that there's a temptation sometimes to 
address a particular type of problem with a new system. And 
that sometimes we have the capacity already, if we go back to 
existing processes and programs, to build on those in a more 
efficient way, rather than create an entirely new system to 
support a niche problem or some aspect of it which was not the 
heartland of what was originally envisioned when the program 
was built.
    We're looking at that now. For us, one of the important 
areas is gang activity. We're not going to see the results that 
we want if we focus on gang activity only after it occurs. 
Instead of doing that, what we're working with is our other 
agency partners. We want to work with everyone from Agriculture 
to HHS to look at how we go all the way back to try to address 
some of those areas where quite frankly, in many communities, 
we're failing to intervene at an appropriate place.
    One of the challenges is for us to be disciplined in 
looking at those places where we can do more by building on an 
existing program rather than creating something separate. 
That's one of the reasons why interdepartmental communications 
is so key. And when we find that they're happening well, we 
typically find that we're seeing the results and we're seeing 
add-ons, or we're seeing more efficient use of resources 
because someone's able to do that.
    I want to say quite clearly that one of the things that a 
court can offer to the child protective service community is a 
system which has a substantial amount of control over 
individuals. And we don't, we often fail at taking advantage of 
that opportunity to really work with the parent, not just the 
child that comes before the court. We see it done in many 
specialized courts, whether it's a drug court, whether it's a 
specialized gun court. We see that kind of intervention working 
well.
    So I would just say that I think that the justice system 
for juveniles and for families is an area that we need to 
continue to leverage, because it provides some tools that are 
not otherwise available in the health care environment.
    Mr. Horn. Mr. Delay, clearly coordination at the Federal 
level is difficult and we're doing the best we can, I think 
with some success. But it's even worse at the local level. The 
real problem is not at the Federal level when you have 51 
different programs and funding streams. The real problem is at 
the State and local level.
    I mean, think about it. If you're interested at the State 
or local level to put together a seamless system of services 
called child welfare to support families, prevent child abuse 
and neglect, to intervene in cases where abuse and neglect has 
been found, and then to provide after-care and then adoption 
services if necessary, you have to negotiate all these 
different programs. And they all have their idiosyncratic 
reporting requirements. They all often have different 
eligibility requirements. Some are State formula grants. Some 
are entitlements programs. Some are competition, some are only 
open to local community-based organizations, others only open 
to States and local governments.
    I mean, this is very difficult to do at the State and local 
level. So one of the things, one of the consequences of 
creating so many different programs and putting them in so many 
different places is not just making it difficult for us to 
coordinate. That's actually the easy part. The hard part is at 
the State and local level.
    Mr. DeLay. Ms. Hefferan.
    Ms. Hefferan. Well, I think it is clearly difficult at the 
State and local level. But that's probably the most important 
place for these programs to be developed and coordinated and 
delivered, because we cannot conceive at the national level of 
all of the circumstances and configurations of organizations.
    I think one of the things that we've tried to do is to 
capture the creativity of the local communities with really 
limited resources that are catalytic in nature and essentially 
launch the best ideas. But I certainly agree that there are 
very many players for very good reasons in this issue. And it's 
a coordination problem across the entire spectrum, not just the 
national level.
    Mr. DeLay. I would hope that we could charge you as a 
committee and working with you to go back to your respective 
departments and report back to me and to this committee that 
you've looked at all these programs and looked at the ones, and 
report back to the ones that are working and the ones that are 
not working. Rather than trying to coordinate everything that 
exists, maybe you ought to take a hard look at those, I think 
this committee needs to know which programs are working and 
which are not working.
    Also, I would admonish you to, well, let me just finish 
with this, Mr. Chairman. Dr. Horn, can you explain the purposes 
of the two separate working groups at HHS and how you think a 
third one would help to reduce the bureaucratic barriers that 
hamper our ability to protect children?
    Mr. Horn. Well, first of all, the one that ACF runs is the 
one that I'm most familiar with, which is the Interagency Work 
Group on Child Abuse and Neglect. And this used to be 
statutorily mandated. Then Congress deleted the mandate, but 
there was a felt need within my agency to continue to work with 
other agencies, both within HHS and across other departments, 
in order to make sure that we weren't duplicating efforts.
    And also, where it was appropriate, to do some joined 
funding and some joined efforts. For example, the Children's 
Bureau and SAMHSA jointly fund the National Resource Center on 
Substance Abuse and child welfare. It's a nice intersect 
between the work that they do and the work that we do. We 
jointly fund the National Resource Center, which provides 
training and technical assistance to both the child welfare 
system and the substance abuse treatment system, as well as 
finding ways for them to work together effectively.
    We also work with NIH in terms of helping to develop 
jointly a research agenda in this area. We've seen some very 
nice gains in terms of our knowledge about neglect through the 
Consortium on Neglect, which is also being coordinated between 
us and NIH and other agencies within HHS. I think the other 
interagency group that exists currently is the one found in the 
Department of Justice.
    Then the third one is really more of a workshop than a 
freestanding interagency work group, and this is in response to 
conversations that we've had in part with your office to get 
the Surgeon General engaged in the issue and to help to 
integrate a public health perspective into child abuse and 
neglect. So on June 16th, we're going to be holding a workshop. 
But it's unclear at this point whether we see this as a 
longstanding coordinating group, but rather an opportunity to 
bring together a variety of different actors from the Federal 
level to begin the conversation about how we can better 
coordinate outside of the existing coordinating councils.
    Mr. DeLay. Mr. Chairman, I think they've answered most of 
my questions. Again, I appreciate your indulgence and the 
indulgence of the other members of the committee.
    Chairman Tom Davis. Well, thank you very much for your 
leadership. Congratulations again on your award, and permanent 
reorganization authority is something this committee continues 
to look at and address and we look forward to working with you 
on it. Thank you very much.
    Mr. DeLay. Thank you, Mr. Chairman.
    Chairman Tom Davis. The gentleman from Maryland, Mr. Van 
Hollen, is recognized for 5 minutes.
    Mr. Van Hollen. Thank you, Mr. Chairman, and thank you for 
holding this hearing, and Mr. Majority Leader, I just want to 
thank you for your commitment on these issues and 
congratulations on the award as well.
    This is not a Republican issue, not a Democratic issue, 
it's not even just an American issue. This is a human issue and 
I know that all of us are interested in getting results. I 
thank the witnesses for being here today, Secretary Horn is a 
constituent and I thank you for your long commitment to these 
issues.
    And by all means, where we have programs that are not 
working or not functioning well, I ask members of the 
administration to come forward and tell us what's broken and 
whether you want to fix it or get rid of it or merge it or 
whatever it may be. Because if we're spending dollars 
ineffectively and we're not getting the results in terms of 
reducing child abuse and making it easier to move children from 
the foster care system into permanent placements, by God, I 
think we need to know, we need to get to that result.
    Mr. Horn, I've looked at your prepared testimony and 
listened to you and Mr. Flores, I listened to you as well. In 
your statements you talk about terrific coordination that's 
going on within the Federal Government, interagency processes. 
Mr. Flores, you've got a whole section entitled Statutory Tools 
that support agency coordination and collaboration. These are 
existing statutory authorities, and you talk about the good 
work and cooperation and collaboration that's going on using 
those authorities.
    Mr. Horn, I understand your comments with regard to block 
granting. And that's an important issue and it should be 
debated. But this hearing is being held under the overall 
umbrella of legislation to provide for blanket executive 
reorganization authority. And as I listened to you, Mr. Horn, 
you said yes, there are lots of different programs at the 
Federal level, different offices. But the real issue is the 
funding streams at the State level. These charts over here deal 
with all the Federal agencies, and that's been the thrust of 
this hearing.
    So I'm going to ask all of you, what specific 
reorganization measures are you proposing that we need to take 
in this area to be effective that you want to do today that you 
do not have the statutory authority to do at the Federal level 
with respect to executive organization? I'd be very interested 
in your specific ideas, because what I've heard so far is, 
we're going to take a look at it, it's important to study this 
issue, but I want to know today what obstacles you see with 
respect to your executive ability to reorganize at the Federal 
level that you do not have the authority to do.
    Mr. Horn. I think one of the difficulties in contemplating 
reorganization is the fact that you have to deal with so many 
different committees within the Congress, because there are 
different programs and different committees have jurisdiction. 
Let me give you an example on youth issues. The Department of 
HHS is quite interested in this new idea of positive youth 
development as a prevention strategy for a whole host of 
things, including prevention of child abuse and neglect for 
youth. One of the things we know from the positive youth 
development perspective is that kids who are well connected to 
families, to communities and to community organizations and to 
other caring adults in their community are at far less risk for 
a whole host of negative outcomes.
    Well, the Secretary, back in the fall of 2001, 2\1/2\ years 
ago, actually 3 years ago, he directed my agency to look at all 
of the youth serving programs within HHS, because the question 
that he had was, why aren't they all in this box called the 
Family and Youth Services Bureau? Why are not all the youth 
serving programs at HHS in that box where they can work well 
together?
    So we did a comprehensive review of HHS youth serving 
programs. And we found two things. First of all, we found that 
a lot of youth serving programs are embedded in legislation 
that is broader than just youth serving. So the Secretary then 
had a choice of transferring programs from one part of the 
agency to another simply to get the youth programs over there, 
but in order to do that, he'd have to transfer the entire 
program itself, some of which may have nothing to do with youth 
serving issues.
    The other thing is we found some instances where, for 
example, the National Youth Sports Program is statutorily 
mandated to be in one aspect of my agency and can't be 
transferred unless Congress agrees to do that. So one of the 
things that fast track authority would allow the Secretary and 
the President to do is to come to Congress with a comprehensive 
reorganization plan in whatever area makes sense, and then to 
ask Congress to give us an up or down vote on the 
reorganization plan, instead of going through 7, 8, 9, 10 
different committees in order to start to piecemeal bring 
things together.
    Mr. Van Hollen. Thank you. If I could just ask, Mr. 
Chairman, if we could get a list, if you had the authority 
today to make these changes, if you could please provide me and 
my members of the committee with a list of specific changes in 
this area that you would make today, and what the statutory 
obstacles are to those, to making those changes, it would be 
very helpful to me in analyzing this legislation. Thank you.
    Chairman Tom Davis. Thank you. Let me just say to my friend 
from Maryland, we saw with the Department of Homeland Security 
and other areas, when the administration does come up with a 
concept, it's vetted through the committee process. These 
bodies here are driven by jurisdiction. We can't sometimes get 
the right result. I think the administration, whether it's a 
Bush administration or a Kerry administration, would be more 
emboldened with a permanent reorganization authority, something 
the Presidents from Franklin Roosevelt to Ronald Reagan had.
    Now, what form does that take is something I think we would 
have to sit down and discuss and try to work together to come 
to. But without that, I don't think you're going to find 
anybody coming up in an agency on their own saying, well, they 
ought to abolish that agency but keep mine going back and 
forth. So I think that the concept is something we need to work 
together on. I've had discussions with Mr. Waxman on this. 
There are certain worker safeguards and the like that would 
have to be included in that.
    I think this hearing illustrates just one area where 
obviously reorganizing, streamlining, means we can get more for 
the same number of dollars. And that's really what it's all 
about at a time when resources become scarce.
    The gentleman from Pennsylvania is recognized.
    Mr. Murphy. Thank you, Mr. Chairman. And I thank the 
distinguished panel for being here.
    I'm looking at these charts and this system which doesn't 
make a lot of sense to me. If you heard my opening testimony, 
it's much, much harder for people to try and negotiate this 
system who are so vulnerable and also States. I suppose, if we 
also listed all the State programs, it would fill this room 
with lines and goodness knows how to make sense out of this.
    So Dr. Horn, let me start off by asking you, if you had the 
blank slate to really try and establish and rework this in a 
way that helped the States, that streamlined this and got the 
money to the programs where it would make the most difference 
somehow, and some other organizational structure to protect and 
nurture our Nation's children, do you have any idea where you 
would start?
    Mr. Horn. Yes, I do, actually. I'd start with allowing 
States to develop a single data collection and reporting 
system. You see, right now what we do is we say, here's the 
program, who does the program serve. And we set up a data 
collection and reporting system for that program. So we have a 
reporting program for CPS, we have a different reporting 
program for a different aspect of child welfare.
    Instead, what we ought to do is say, here's a family. What 
services does this family need, and let's develop a single data 
collection and reporting system for the family, where it's 
family and child focused and not program focused. What that 
would do is first of all eliminate duplication and 
administrative burden on the part of States and local 
communities. But it would also force services to start to think 
coordinating rather than just in their own little box.
    So as long as we have all these different data collection 
systems and reporting requirements across all these different 
programs, it's going to be very difficult to get people at the 
local and State level to think outside their particular box. 
And it's very difficult to coordinate services, because you 
don't ask the question, what services does this family need, 
because you're reporting on the service that you provide.
    So that would be the one place I would start, is to provide 
the ability for States to come up with a single data reporting 
system that would ask the question, not who does this program 
serve, but what programs and services does the family and child 
need.
    Mr. Murphy. Thank you. Let me shift over to Mr. Flores. My 
understanding is that your office is responsible for about $79 
million annually through part B State formula grants which are 
supposed to provide treatment of juvenile offenders who are the 
victims of child abuse and neglect. Now, the committee staff 
tells me that there are no performance goals associated with 
this grant money in the Department's fiscal year 2005 
performance plan. Will performance goals for this grant program 
be forthcoming? And I'd like to know how you're going to 
coordinate this with other Federal agencies and develop these 
performance measures, to make sure the Federal Government is 
speaking with one voice in addressing these issues of abuse and 
neglect.
    Mr. Flores. Congressman, the President has been very clear 
that he wants to see performance measures in every program, so 
that we can figure out whether or not we're actually helping 
the people that we're responsible for working with. We are 
taking a look at all of the parts of OJJDP, not only to make 
sure that they have performance measures, but that the 
performance measures actually get us to where we want to go. 
One of the challenges has been historically that, there has 
been a question as to what's the widget. Is it that at the end 
of the day we want to have a healthy child in a good situation, 
or is it that we want to dispense a program well? I think 
that's a little bit of what Dr. Horn was talking about.
    So we're looking at changing performance measures so that 
they actually have a tie-in to the ultimate success, the 
outcome of that child, not just have we delivered it in a way 
that's effective, did the money go out to the State, did the 
money do what it was supposed to accomplish. Now, where we do 
an excellent job under any measure is in the money that is put 
out to the States on issues of confinement. And the reason for 
that is that we have very clear outcome measures that everyone 
has to look at in three of the four categories, so that we know 
State to State whether or not children are where they're 
supposed to be in terms of housing, whether or not the State is 
still imprisoning status offenders, whether the confinement is 
being used in an appropriate way.
    Because of that, we have an extraordinary amount of success 
that every year we build on. We have very few States, I think 
only one or two, that still have challenges in that area. But 
we're working in that way. So the answer to your question is 
yes, and that we are in those areas where performance standards 
have been in place for a long time, we're reviewing those to 
make sure that they are actually outcome oriented, and not 
simply process oriented.
    Mr. Murphy. I hope you can do that, not only to have a 
standard, but to enforce them. Because even in States that may 
recognize that, having worked in the field myself, I've seen 
them handled horribly and really contribute to just 
perpetuating the cycle of abuse among our children. It isn't 
enough just to have standards, they must be enforced vigorously 
and with passion and commitment. So I hope you'll do that.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. You'll get an opportunity for more 
questions later. Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    Dr. Horn, I was interested in your testimony and your 
description of various coordination efforts. You indicated that 
there was more coordination going on. I'm led to believe there 
must be a fair amount of coordination since there has been a 
reduction, and this is between the last administration and this 
administration apparently, in the number of Federal programs in 
this area. I'm not sure what accounts for the decrease. I 
wonder if it's reorganization.
    And what I'd like to know is what HHS has done with, on the 
authority it has internally to reorganize the way in which it 
delivers services to abused and neglected children.
    Mr. Horn. Well, first in terms of the issue of program 
reduction, at least in the Administration on Children and 
Families, the number of spending authorities that I oversee has 
grown over the last 3 years, not reduced. Not all of them are 
obviously related to child abuse and neglect, but all of them 
are related in some ways to families and children. And the 
Secretary likes to talk about one department. He likes to say 
that HHS is not a holding company with all sorts of disparate 
interests, but all of us have an interest in the well being of 
American citizens. And he's right. And within the 
Administration on Children and Families, I take that to also 
mean that we are one administration focused on improving the 
well-being of children and families.
    The one reorganization that we've undertaken within ACF is 
to try to pull as many youth programs together and family 
serving programs together and place them within this 
organizational box called the Family and Youth Services Bureau. 
We've had some success with that, for example----
    Ms. Norton. This is for abused and neglected children in 
particular?
    Mr. Horn. It's for, well, we have this perspective that if 
you help build strong families and you provide children with 
good opportunities to connect with their parents, with other 
caring adults in their community, with schools and civic 
organizations, that you have less abuse and neglect, as well as 
less crime, less depression, less suicide, less school dropout. 
And there's a good deal of research to show that.
    So what we try to do is have a perspective that says we 
need to strengthen families and supports for families and 
children as an organizational unit. And one way to do that, to 
do that reorganization is to try to pull as many youth serving 
organizations together into one organizational box so that they 
can be better coordinated. And we've done that. We have 
transferred into the Family and Youth Services Bureau and the 
Family Violence Program, to integrate that into the services 
for youth. We've also in the process of transferring, the 
Secretary has the Title V, Section 510 abstinence grants, State 
formula grants, from HRSA into the Family and Youth Services 
Bureau to integrate it with a broader positive youth 
development perspective.
    But there's another abstinence education program that's 
done under the Sprands grants that's also in HRSA. But because 
they're part of a larger authorized grantmaking authority, the 
Sprands program, the Secretary can't take out the abstinence 
education grants from Sprands and transfer them over into the 
Family and Youth Services Bureau to coordinate them with the--
--
    Ms. Norton. You could ask us for a slight change in law 
that would enable you to do that.
    Mr. Horn. And in fact we have. That's part of the 
President's fiscal year 2005 budget.
    So I'm not here to say that reorganizations are impossible 
to happen without fast track authority. But certainly what fast 
track authority does is allows us particularly, if you want to 
think very boldly, allows the President, whoever the President 
might be, whatever the administration might be, to not have to 
negotiate through multiple committees and subcommittees to make 
an organization that makes sense.
    Ms. Norton. You have, I think correctly noted that these 
services are delivered at the State and local level. That's 
where the quagmire is. We don't want to blame you for that. A 
block grant which simply gave the money to the State, and we've 
seen what block grants have done in other agencies, without any 
mandate to straighten that out, still leave the State, it seems 
to me, where it is today, able to deliver money as it wants to.
    I mentioned in my opening remarks the one-stop center 
notion. But I don't see how simply lumping the money together 
brings the programs together.
    Mr. Flores. Congresswoman, forgive me, but I don't, at 
least in my area, I don't know of any proposal for us to block 
grant any funds. We do have a proposal to allow States an 
option to use Title 4(e) foster care funds more flexibly, 
something that we've been doing under the child welfare waiver 
authority that States have been experimenting with under the 
child welfare waiver authority since that waiver authority was 
implemented as part of PERORA in 1996.
    What we've found in the States that have taken Title 4(e) 
foster care funds and been able, where they can use them more 
flexibly, is we've found first of all, fewer kids are going 
into foster care. Second of all, there is some evidence that 
the length of stay for those kids in foster care, once 
controlled for severity of symptoms and severity of the abuse 
or neglect, is shorter. And there's been no detriment in the 
overall well-being of children.
    So all the President would like to do is provide States the 
ability to opt into a more flexible funding option with Title 
4(e). But that's not a block grant. I run block grants, I run 
the Social Services block grant, the TANF block grant, the 
Community Services block grant. I know what block grants look 
like. You give the money out to States under a formula, they 
send a plan in, and as long as they do stuff based upon their 
plan, everything's OK.
    But in terms of the flexible funding option for States, 
they would have to front-end submit a plan which could be 
turned down by the Secretary. There would be every continuation 
of every child protection under law for kids in foster care as 
currently are there. And they would also have to have an 
evaluation overlay to ensure that outcomes for kids are better 
off given their ability to use the funds more flexibly.
    Because the big problem right here, right now, in Title 
4(e), is that we're spending $4.6 billion a year to do three 
things: help pay for the costs of kids, maintaining them in 
foster care; help States with the administrative costs of 
running those programs; and doing child welfare training. Now, 
all of those three things are fine, but notice I never used the 
word services. Within that $4.6 billion, the largest Federal 
funding stream for child welfare, not one penny can be used for 
services.
    Does that really make sense? Why not allow States at their 
option to use the money also for prevention services, for 
wraparound services once the kids are in foster care, for post-
adoption services if the kid is adopted? Services, it seems to 
me, is the name of the game, not process. Unfortunately, we're 
paying for far too much process and far too little service.
    Chairman Tom Davis. Thank you. The gentlelady's time has 
expired.
    The gentlelady from Tennessee, Mrs. Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman. And I want to 
thank our panel for being here.
    And Dr. Hefferan, I'll begin with you. I'm one of those 
committee members that is a 4-H alum, and loved every minute of 
it and have a 79 year old mother who is in her 60th year as a 
4-H adult volunteer, one of those 50,000 volunteers that you 
mentioned. And I commend you and your program for your 
aggressive pursuit of a public-private partnership. It 
certainly does make a difference in what we do.
    I would hope that you all are keeping a list of best 
practices and lessons learned that you are willing to share 
with other agencies as they look for ways to have successful 
implementation at the State and local level.
    Ms. Hefferan. We certainly are, and that has been one of 
the benefits of the coordination, particularly through HHS, is 
that we have shared a number of practices and policies. In 
light of that, I think one of the real challenges that we have 
with education based programs is that the outcomes of the 
programs are very far removed from the input and expenditure, 
whether it's Federal or local funding. And that is an ongoing 
challenge as we think about accountability, as we think about 
coordination with others. These long term programs, which 
certainly many of us believe are the ones that are most cost 
effective, are most difficult to establish the impacts from.
    Mrs. Blackburn. Well, we thank you for your work. I hear a 
tremendous amount of frustration in your voice. And I would 
hope that you realize there's frustration on our part, also.
    Now, let me just for clarification, how many of these 90 
programs come under your jurisdiction?
    Mr. Horn. For the major child welfare programs under my 
jurisdiction are Title 4(e) foster care----
    Mrs. Blackburn. Just the number.
    Mr. Horn. Probably 12.
    Mrs. Blackburn. OK. Do you come under the CFO Act? Do you 
comply with that?
    Mr. Horn. Yes.
    Mrs. Blackburn. You do, OK. And have you all participated 
in part in the PMA?
    Mr. Horn. Yes, we have.
    Mrs. Blackburn. OK, great. And the GAO, have they done a 
review in the last couple of years of your department?
    Mr. Horn. They certainly have done a number of reviews of a 
number of the programs that we oversee.
    Mrs. Blackburn. OK, great. Now, you expressed frustration 
with the States. And having come from the State Senate in 
Tennessee, a lot of times we had a pretty good bit of 
frustration with you all, in not being able to understand how 
you were laying out what your requirements were.
    So let me ask you this. As we say that's a problem and 
trying to address it, and of course it's frustrating to me to 
hear that you're waiting, that you're just now going to talk 
about beginning a dialog to address all of this when this has 
been going on for a long time. So June 16th ought to be a 
pretty good day if we're going to open some communication. We 
want to be certain that's successful and that these programs 
continue to be funded. I agree, money should go into the 
programs and not into the bureaucracy. And I'm going to agree 
with you on that.
    But let me ask you a question here. How do you set your 
accountability standards for these programs for the States? And 
then the evaluated, or the data that you're receiving back from 
the States, how are you putting that in to evaluate it, and 
then spit something out that helps you to say, this is where we 
need to tweak this, this is where we need to push for some 
efficiencies? And then what kind of accountability do you have 
on yourself and on the States to improve that delivery of 
service?
    Mr. Horn. First let me clarify, I'm not frustrated with the 
States. I'm saying that I imagine States are frustrated by the 
multiple funding streams that would require them to negotiate 
in order to implement child welfare services at the local 
level. I, like Dr. Murphy and Dr. Watson, am a child 
psychologist. I've spent my professional career working in and 
around the child welfare system, and I know from both the 
Federal and local level how difficult the system can be to 
negotiate and work in.
    In terms of accountability, there are three things that we 
do. First of all, we participate in the GPRA process each year 
and we have two primary child abuse and neglect GPRA outcome 
measures that we challenge ourselves each year to improve up. 
One is the incidence, the overall incidence of child 
maltreatment and the second is the recurrence or repeated 
maltreatment of children. And we're working to try to reduce 
those.
    Second, in all of the grants that we provide, we have an 
evaluation or outcomes based requirement so that each of them 
must also implement and then report back to us on the outcomes 
of the individual grants that we provide. But the most 
aggressive thing we've done in this area in the last 3 years is 
the implementation of a new system of reviews of child welfare 
systems in America called the Child and Family Services 
Reviews. This is a new review system that is outcome focused, 
not process focused, that goes in and reviews child welfare 
systems at the State and local level from beginning to end, 
from prevention and support services to CPS services to foster 
care services to adoption services.
    And it's not just a paper review. Yes, we review records. 
But then we go and talk to people who are involved in that 
case, first to find out, does the record accurately reflect 
what actually happened, so we may talk with the foster parent, 
we may talk with the biological family, we may talk with the 
case workers, we may talk with advocates. We talk with a range 
of people involved in that case. We also look at State level 
data, real data about treatment incidents, repeated 
maltreatment incidents, frequency of placements in foster care 
and so on, and have set a very high bar for positive results in 
all of these areas.
    The result of which is, we just completed all 50 States, 
the District of Columbia and Puerto Rico. Not one State has 
passed all of our outcome based standards in our Child and 
Family Services review. Not one. That is very, very bad news 
for defenders of the status quo. If the status quo was working 
so well, why is it that not one State was able to pass all of 
our outcome based standards when it came to outcomes related to 
child welfare systems?
    Mrs. Blackburn. Thank you, sir, and thank you all for your 
service, and we look forward to working with you. Mr. Chairman, 
thank you.
    Chairman Tom Davis. Thank you very much.
    Ms. Watson.
    Ms. Watson. Thank you so much, Mr. Chairman. I appreciate 
the panel. This is a deep and complex area that we're dealing 
with. But we have a model out there, and first, I want to say, 
I think there ought to be a legislative proposal after you 
collect all of our responses, as you respond and we respond, to 
get some idea where we'd like to see you go. I think there 
ought to be a legislative proposal.
    But you have a model, it was the 1996 welfare reform. And 
that was worked over for a long period of time. What we have to 
do is enable the local establishment, local government as well 
as State government, meet your floor. We set the floor here in 
Congress, but the States then have to customize and meet their 
needs. I would say we need to start with a proposal that looks 
at services first, should be child-centered and then in the 
processes at the local level, we need to take into 
consideration wraparound kinds of thinking, so we can 
coordinate across all areas rather than run into walls and 
blocks.
    We need to look at case management, because it really boils 
down to the individual child, so what is the case management 
approach, who are the stakeholders, and then how do we collect 
the data. I like the demonstration projects. Are the 
demonstration projects meeting the mission goals, the 
objectives that were set up? One of the problems we have in 
California is 58 structures called counties that deliver these 
services. And the county government is their own feifdom. 
Breaking across those lines to collect data is something we 
haven't figured out as well, yet.
    And we need to look at outcomes and have long term 
evaluations to see what is working, what is not working, and 
demonstration projects are set up to do that kind of thing. And 
then what we need from the Feds are the resources. Now, how we 
give those resources is the challenge. Block granting in the 
State of California means that money is going to go to support 
education, probably, because that's where we need it. But we 
also need the protective services.
    So my recommendation, and then you can respond about a 
proposal, bring to us based on all the hearings that you have a 
legislative proposal, let us work it through our process and 
then require the States to customize, fix it and report. And 
Dr. Horn, can you respond?
    Mr. Horn. Well, I agree with you. I think it's important 
for us to do all of those things and to enable States to put 
together seamless systems of care at the local level. And I 
absolutely agree with you that TANF is a good example of this. 
In fact, TANF is one of those programs that I oversee. One of 
the things we did in TANF, for example, is collapse three 
different child care funding streams into one because all those 
there child care funding streams had different eligibility 
requirements, different focuses and so forth. By collapsing 
them into one funding stream, we were able to provide the 
States with the flexibility they need to figure out how to use 
child care in the service of moving people, not just off of 
welfare, but out of poverty effectively. And they did a good 
job with it.
    Let me also clarify that the President believes that it's 
not just a matter of greater flexibility in child welfare, it's 
also a matter of more resources. And the President has asked 
for a billion dollar increase in the Safe and Stable Families 
program, half of which the Congress has appropriated thus far, 
but we're still asking for the other half. And he's asked for a 
doubling in this budget of the Child Abuse Prevention and 
Treatment Act funds, which would allow us, for example, to 
provide preventive services to 55,000 more families than are 
currently being provided with preventive services at the local 
level.
    So I agree, it is not just only about flexibility, although 
flexibility is important. It's also about additional resources, 
and the President has proposed those.
    Ms. Watson. Let me just ask you, this is my final question, 
Mr. Chairman, are we going to be presented, is Congress going 
to have a legislative proposal referencing this reorganization 
that then we can process, amend and come up with something in a 
period of time?
    Mr. Horn. I think that would be part of a topic of 
conversation on June 16th when the Surgeon General convenes his 
work group.
    Ms. Watson. Thank you. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much. Mr. Murphy.
    Mr. Murphy. Mr. Chairman, a quick followup. Representative 
Blackburn was asking about Federal programs and measuring State 
performance and what types of measures were used. How does this 
information make its way back to Congress, and how do you close 
this loop to make sure we understand what the States are doing?
    Mr. Horn. We do that in a variety of fashions. We do notify 
Congress of the results of the Child and Family Services review 
process. I just testified last week before the Human Resources 
Subcommittee on that very issue. But judging from your 
question, it sounds like we need to do a better job of keeping 
Congress informed.
    Mr. Murphy. I'd like to see it myself.
    Mr. Horn. I'd be very happy to provide it.
    Mr. Murphy. Another question, but before I do that, Dr. 
Hefferan, we've kind of left you alone there, I've seen first-
hand that programs like 4-H do a marvelous thing for children, 
not only abused children but children with physical handicaps 
and so on. I tip my hat to you.
    But let me just throw out this last question to the whole 
panel. The White House report on disadvantaged youth indicates 
there are some six different clearinghouses to identify what 
works. So what do we know about what works to prevent child 
abuse, help children aging out of foster care and to prevent 
juvenile delinquency, and is the Federal Government funding the 
right programs? Just as importantly, I want to go back to, are 
we ending the programs that don't work?
    Mr. Flores. The Office of Justice Programs is involved 
currently in trying to address that specific fact that you've 
noticed, which is that almost every agency has a different set 
of what works. It creates a number of problems, because in some 
cases you have to have a program on a certain list in order to 
be able to apply Federal funding to it. We really would like to 
see a unified what works grouping so that people could go to 
one place and reference programs throughout the entire 
Government and have a sense, with some common denominators, as 
to how to judge one program against the other, so that you can 
have your choices about what you want to do, it doesn't mandate 
it, but it dose give you an idea as to what testing has been 
applied to that program.
    You know because you've seen the evidence in a number of 
programs that even though they claim to have been tested and 
reviewed and evaluated, the evaluation is not worth the paper 
that it's printed on. Vice versa, we've had other programs that 
have really undergone substantial evaluation and really are 
gold-plated programs. We know that, and they deliver the 
results that they promise.
    How to make that distinguish, how to distinguish that for 
the people out in the field so that communities have a quick 
way of identifying programs, they don't waste money and they 
don't spend money on trying to develop a best practices that 
already exists is something that's already underway. We're 
partnering with HHS, we're talking to our friends at SAMHSA, at 
CSAP, we're trying to bring all of those together so that we 
have one way of looking at programs and we have one place to 
direct people to, even though they might be accessed through 
the HHS Web site or any other home page.
    Mr. Murphy. Is this going to require some legislative 
action to take place, or do you have full authority to move 
forward on these changes of refining?
    Mr. Flores. I believe that we are not going to need any 
legislation, at least at this point I'm not aware that we do. 
We're moving forward and having conversations, and the process 
is underway. We're not in the process of asking for any 
legislation. We think that we can do that. In many ways it's 
simply a matter of recording and making public what each agency 
already knows. Sometimes it's very difficult to find that out. 
The other part is that while we may say it's a best practice or 
has been evaluated, the person looking at that may not have a 
way of determining whether the evaluation meets their own 
standards.
    So by making it more transparent, and by telling people, 
this program was evaluated, but it was evaluated this way, it 
will allow them to say, OK, well, it was evaluated, but we're 
still not going to use it in our State, because it doesn't meet 
the Governor or the head of juvenile justice in our State, it 
doesn't meet our standards.
    Mr. Murphy. Do any of the other panelists have a comment on 
that? Dr. Hefferan.
    Ms. Hefferan. Actually through our connections with the 
university research systems, we have supported and maintained a 
Web based system for evaluation of youth development programs, 
parenting programs that essentially can evaluate by a criteria 
based system the components of a program and match that 
essentially to the issues that you're particularly facing in a 
community or with a program. It's called Cypher Net, it's quite 
an inexpensive program, Web based. It has literally millions of 
hits each year from professionals across the entire country 
trying to look for criteria against which to judge specific 
programs.
    Mr. Murphy. Thank you. Dr. Horn.
    Mr. Horn. At the Administration on Children and Families, 
we are particularly attracted to this whole notion of positive 
youth development, as I mentioned. I think the problem we've 
had in recent history is we tend to see children and youth as a 
series of problems to be solved. So we have an anti-drug 
program on Monday, an anti-smoking program on Tuesday, an anti-
teen pregnancy program on Wednesday, all of which are very 
useful and needed. But we don't bring them together very well, 
and we don't tend to treat children and youth as the complex 
human beings they are, that have both assets and deficits.
    So what we're trying to do is provide services in a new way 
that treats youth and children as people that have both assets 
and challenges. And the problem with that is that some of the 
funding streams make it difficult for us to do that. Even 
within the Administration on Children and Families, I've got 65 
different spending authorities. You'd think at least I could 
get those to work together. It's a challenge. And there are 
some cases where legislation may be required as we've 
requested, for example, in the President's fiscal year 2005 
budget.
    Mr. Murphy. Well, I hope you would identify those to us, 
whether you have the authority or need legislative authority. I 
would really ask you to report back to the committee and let us 
know. It's extremely important to this committee to know that 
we could followup on that, too.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you. Let me just ask a quick 
question before turning it over to Mr. Ruppersberger. If 
Congress were to grant the President the authority to initiate 
the type of programmatic reorganization of the Federal 
Government, would you recommend that the White House consider 
child welfare programs as a candidate for reorganization, 
providing you, the experts in the agency, it would give you a 
chance to determine the best structure, or would you rather 
have the status quo?
    Mr. Horn. My job is to advise the Secretary of Health and 
Human Services, who then advises in turn the President. I would 
certainly advise the Secretary that would be a good area for us 
to look at.
    Chairman Tom Davis. Mr. Flores.
    Mr. Flores. I agree.
    Chairman Tom Davis. Dr. Hefferan.
    Ms. Hefferan. I agree, also.
    Chairman Tom Davis. All right, thank you very much. Mr. 
Ruppersberger.
    Mr. Ruppersberger. It's an extremely important issue, I 
think the panel has done a good job in presenting. I referred 
to in my opening statement about being a county executive. And 
I had an issue where a child died, her name was Rita Fisher. 
And I put it on my refrigerator for over a year, wondering how 
we could make sure this didn't happen again. What we did at a 
local level in the social services department was do program 
review, literally determine what programs we could or could not 
afford or that weren't effective, so that we could then 
downsize or do away with those programs to put our priority 
where things were needed.
    I agree with you that resources need to go to families 
before the problem even starts. But there are also degrees of 
areas that we really have to focus on, child neglect, 
malnutrition. I think we really need to focus on the foster 
care. I think there are a lot of good people in foster care and 
there are people that shouldn't be in foster care, and a lot of 
accountability in that regard.
    What I really feel is important, though, is that in the 
end, we need to as quickly as we can get the moneys and the 
resources to the local level. By the time you get money, and 
here I was a county executive and now I'm sitting here as a 
Congressperson, maybe being able to do something a little 
different. But by the time you get Federal grant money, it goes 
to the Federal bureaucracy, the State bureaucracy, sometimes it 
gets to the locals; half the money's gone.
    What my experience shows is that we need more resources at 
the local level as quickly as we can. And then from a Federal 
level, it would seem to me that we need to make sure the 
policies are there, we need to make sure that we are reviewing 
accountability and outcome. That needs to be done. We also need 
to make sure that if we have bad managers, we move them aside 
to make sure we can be held accountable.
    I think we're all in agreement with some of the things that 
are happening today, I think Majority Leader DeLay hit it on 
the head when he said every time we turn around, we create a 
new program to help in solving the problem. When in fact, I 
would wonder if we could do away with some Federal programs, or 
consolidate Federal programs so that we could have a 
coordination between drug problems versus malnutrition problems 
versus all these other issues.
    So my question basically would be, what do you feel about 
the issue of getting moneys, you keep talking about the State. 
I think the State slows up a lot. And I'd like you to address 
that issue, between State and getting money to the actual 
locals, to the social workers and people responsible at the 
lower level, getting moneys to the State. Would you be able to 
evaluate and recommend moneys going more quickly, and I'm not 
sure about bypassing the State, but we have to work on that 
plan.
    Mr. Flores. As a practical matter, we've attempted to find 
out if we have a current way of doing that right now. We 
administer some block grants and we administer the Drug Free 
Communities program on behalf of the Office of National Drug 
Control Policy. That program provides money directly to 
communities, for them to leverage their existing efforts in 
terms of addressing drug use and other substance abuse in their 
communities. It allows them to partner other things and bring 
things together.
    But one of the things that we have found consistently 
missing is that person whose responsibility is simply the 
coordination. Somebody whose job and whose widget it is to 
demonstrate that actually people are coming together and those 
programs are going where they need to go. In most cases, that 
does not happen. So that if a funding stream from HHS goes 
down, even if it makes its way to the community level, there's 
no one to say that they are going, they are responsible for 
making that funding flow and the person responsible for it is 
talking with the block grant person who's handling the 
community money that comes out from the Department of Justice 
or from the Department of Agriculture.
    So in our gang initiative and in our child prostitution 
initiative, we have begun to fund that role for the local 
community, so that we can demonstrate to them the value of 
having somebody whose sole widget is not substantively to deal 
with any aspect that goes to helping that child, but actually 
is responsible for bringing people together. Now, that requires 
a tremendous amount of time and a lot of force from Washington.
    Mr. Ruppersberger. Mr. Horn, I'd like to hear your point.
    Mr. Horn. The way that the money goes out, whether it's to 
the States or communities, local organizations or local 
government is largely dictated to us by the statute. And 
different statutes dictate how that money goes out in different 
ways. Some of the statutes have a cap on the amount of 
administrative expenses that a State can claim as they 
distribute the money, for example, in a community services 
block grant, there's a certain amount that the State can 
retain, the rest must go to community based organizations to 
implement that.
    But I do think that at the end of the day, you're exactly 
correct, that whatever resources are available, to the maximum 
extent possible, they ought to be spent at the local level 
where you have a provider and a recipient of those services. We 
ought to challenge ourselves to try to figure out how to 
maximize that amount of money.
    Mr. Ruppersberger. Well, my suggestion, you're talking 
about changing a system, then you need to identify those 
statutes, make a presentation to us and let us evaluate it. 
Also, I think it's important that you talk to the front line, 
you talk to the locals and make sure you get the input of where 
money's being wasted and the frustrations that are going on.
    Unfortunately, as we keep growing we create bureaucracy. 
There are always good people in bureaucracies, really a lack of 
management, I believe, at the top. But as far as the 
bureaucracy is concerned, if you look at the resources and the 
money that are going just into the Federal bureaucracy, just to 
implement these plans, just think if you could cut that in half 
and put that money out on the street to help the children. 
That's the challenge we have, I believe, on the Federal level.
    I would hope you would look at that issue when you come 
back. I think there's a lot of interest on this panel, and I 
believe strongly too that we need to do this quickly and from a 
fast track. I think we ought to look at a fast track, because 
the longer we go on with this, the more children and families 
will be suffering.
    Chairman Tom Davis. Thank you very much. Obviously your 
comments have engendered a lot of discussion, and the authority 
and jurisdiction for permanent reorganization resides with this 
committee, something that is basically a priority for the 
leader, Mr. DeLay, who was here earlier, and myself and a lot 
of other members. How we proceed with that, how quickly, what 
we can negotiate, because we also have to get through the 
Senate, which has shown little interest in this, is something 
that remains ahead of us.
    But we appreciate all of you giving your input into this, 
giving us a case study on where we are with this. Again, we 
appreciate the job you're doing. And the hearing will close. 
Thank you.
    [Whereupon, at 11:55 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] 95903.041

[GRAPHIC] [TIFF OMITTED] 95903.042

[GRAPHIC] [TIFF OMITTED] 95903.043

[GRAPHIC] [TIFF OMITTED] 95903.044

[GRAPHIC] [TIFF OMITTED] 95903.045

[GRAPHIC] [TIFF OMITTED] 95903.046

                                 <all>

</pre></body></html>
